UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

Division of Marketing Practices
Craig Tregillus
ctregillus@ftc.gov

Direct Dial: (202) 326-2970
Facsimile: (202) 326-3395

May 14, 2010

Mr. Carlos E. Rodriguez, President
Celestium Crematory
P.O. Box 9086
Plaza Carolina Station
Carolina, Puerto Rico 00988-9086
Dear Mr. Rodriguez:
You have asked for confirmation of your understanding that the Commission’s Funeral
Rule applies to funeral providers in Puerto Rico. Your request was prompted by a recent hearing
examining funeral home practices in the Commonwealth House of Representatives where some
legislators expressed their belief that the Rule is inapplicable in Puerto Rico, giving funeral
providers there the impression they need not comply. You are correct, of course, that the Rule
does apply to funeral providers in Puerto Rico, as a brief review of the history of the relationship
between the United States and Puerto Rico shows.
A Presidential task force has recounted that history,1 but it is useful to summarize it here.
Puerto Rico was ceded to the United States by Spain in 1898 pursuant to the Treaty of Paris,
which ended the Spanish-American war.2 After two years under a military governor, Congress
in 1900 established a civilian government for Puerto Rico.3 In 1917, Congress established the
island as an “organized but unincorporated” territory and granted U.S. citizenship to Puerto
Ricans.4 In 1952, pursuant to the Puerto Rican Federal Relations Act,5 a referendum vote by the
people of Puerto Rico approved a new constitution, also approved by Congress later that year,

1

REPORT BY THE PRESIDENT’S TASK FORCE ON PUERTO RICO’S STATUS (Dec. 2007)(“Task
Force Report”), available at http://www.justice.gov/opa/documents/2007-report-by-thepresident-task-force-on-puerto-rico-status.pdf.
2

Id. at 3.

3

Id.

4

Id.

5

Pub. L. 600.

Mr. Carlos E. Rodriguez
Page 2 of 3
which established the present-day Commonwealth of Puerto Rico.6 In four subsequent
plebiscites, Puerto Ricans have declined to alter that status in favor of becoming a state or an
independent sovereign nation.7
The U.S. Constitution provides that “[t]he Congress shall have power to dispose of and
make all needful rules and regulations respecting the territory or other property belonging to the
United States.”8 The Department of Justice accordingly affirmed Puerto Rico’s territorial status
in 1959, several years after the creation of the Commonwealth,9 as has the Supreme Court.10
Thus, Puerto Rico is a “territory” of the United States.
Section 5 of the Federal Trade Commission Act (“FTC Act”) prohibits “unfair or
deceptive acts or practices in or affecting commerce.”11 Section 4 of the FTC Act defines
“commerce” as follows:
Commerce means commerce among the several states or with foreign
nations, or in any territory of the United States or in the District of Columbia, or
between any such territory and another, or between any such territory and any
state or foreign nation, or between the District of Columbia and any state or
territory or foreign nation.12
The Commission’s Funeral Rule was issued in 1982 pursuant to Section 18(a)(1) of the
FTC Act,13 which mandates, in pertinent part, that any such rule “define with specificity acts or
practices which are unfair or deceptive acts or practices in or affecting commerce (within the
meaning of such section 5(a)(1)).”14 Consequently, the Funeral Rule has the same jurisdictional
reach over unfair or deceptive acts or practices as Section 5 of the FTC Act, which reaches
commerce “in any territory of the United States.” Because Puerto Rico remains a U.S.
“territory,” the Funeral Rule applies to funeral providers in Puerto Rico.

6

Task Force Report at 3.

7

Id. at 3-4.

8

Art. IV, § 3, cl. 2.

9

Task Force Report at 5; see note 4 supra, and accompanying text.

10

See, e.g., Harris v. Rosario, 446 U.S. 651 (1980).

11

15 U.S.C. § 45(a)(1).

12

15 U.S.C. § 44 (emphasis added).

13

47 Fed. Reg. 42260, 42263 (Sept. 24, 1982)

14

15 U.S.C. § 57a(a)(1)(B) (emphasis added).

Mr. Carlos E. Rodriguez
Page 3 of 3
I am enclosing copies in English and Spanish of the Compliance Guide to the Funeral
Rule. The Guide is also available on the FTC’s website in English at http://www.ftc.gov/bcp/
edu/pubs/business/adv/bus05.pdf and in Spanish at http://www.ftc.gov/bcp/edu/pubs/business/
adv/sbus05.pdf.
Please be advised that the views expressed in this letter are those of the FTC staff. They
have not been reviewed, approved, or adopted by the Commission, and they are not binding upon
the Commission. However, they do reflect the opinions of those staff members charged with
enforcement of the Funeral Rule. Staff Funeral Rule opinions are routinely posted on the FTC
website at http://www.ftc.gov/bcp/conline/edcams/funerals/staffopinions.shtm.
Sincerely,
/s/
Craig Tregillus
Funeral Rule Coordinator

